U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Carlos Enrique Urrutia Robles v. William P. Barr, Attorney General,
No. 19-1363
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2020.
The government’s response is now due, after one extension, on October 21, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 20, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

1 9- 1 3 6 3
R O B L E S, C A R L O S E N RI Q U E U R R U FI A
WI L LI A M P. B A R R, A T T O R N E Y G E N E R A L

B E NJ A MI N C A S P E R S A N C H E Z
J A M E S H. BI N G E R C E N T E R F O R N E W
A M E RI C A N S U NI V. O F MI N N E S O T A L A W
SC H O OL
190 M O N D A L E H A L L
2 2 9 1 9 T H A V E. S O U T H
MI N N E A P O LI S , M N 5 5 4 5 5
6 1 2- 6 2 5- 5 5 1 5
C A S P E 0 1 0 @ U M N. E D U

